HHS/OIG - Audit, Review of California Medicaid Claims for State Hospital Mental Health Patients Aged 22 Through 64 Temporarily Released to Acute Care Hospitals During the Period July 1, 1997 Through February 28, 2001, (A-09-01-00055)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of California Medicaid Claims for State Hospital Mental Health
Patients Aged 22 Through 64 Temporarily Released to Acute Care Hospitals During
the Period July 1, 1997 Through February 28, 2001," (A-09-01-00055)
March 27, 2002
Complete
Text of Report is available in PDF format (5.2 MB). Copies can also be obtained
by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this review was to determine if controls
were in place to preclude the State of California from claiming Federal financial
participation (FFP) under the Medicaid program for residents of institutions
for mental diseases (IMD) aged 22 through 64 who were temporarily released to
acute care hospitals for medical treatment.  Our review found that adequate
controls were not in place to preclude the State from inappropriately claiming
FFP in such cases.  As a result, during the period July 1, 1997 through
February 28, 2001, the State claimed $551,394 in unallowable FFP.  We recommended
that the State (1) refund $551,394 to the Federal Government, and (2) establish
controls to prevent FFP from being claimed under the Medicaid program for IMD
residents aged 22 through 64 who are temporarily released to general acute care
hospitals to receive medical treatment.  State officials disagreed with
our finding and recommendations.  However, Departmental Appeals Board and
Federal Court rulings have upheld Office of Inspector General disallowances
in such cases in other States.